APPLICATION OF INSURANCE OFFSETS

 FOR GULF COAST DISASTER LOANS 

                    10-03 

           Report Number:
        Date Issued:October 21,2009

                                                                                                                      2

of hazard insurance
Corporation.2
      recoveries paid by Louisiana Citizens Property Insurance

 We interviewed Office of Disaster Assistance (ODA)loan officers and case 

 managers   at the Disaster Loan Processing and Disbursement Center in Fort Worth,

 Texas  to obtain an understanding of the insurance offset process that was used

 prior to loan approval and during loan disbursement. Where insurance payments

 were  noted, we  reviewed  SBA s computation for determining the size of the loan

 the borrower was eligible for and considered any error in the computation to be an

  offset      error.
                 All insurance payments that were for the same purpose as the

 disaster loans were considered to be duplicate benefits. We conducted the audit

 between July 2008 and July 2009 in accordance with Government Auditing

 Standards as prescribed by the Comptroller General of the United States,and

 included such tests considered necessary to provide reasonable assurance of

 detecting abuse or illegal            acts. 

 We found that ODA did not correctly identify or offset insurance payments on 21

 of the 100 sampled loans,resulting in $385,610 in offset errors,of which $314,363

 were  duplicate benefits. The majority of the errors occurred because loan officers 

 did not check with insurance companies to determine the amount of insurance that

 had been paid prior to each disbursement,as required. In response to our prior

 audit, SBA agreed to revise its standard operating procedures to require

 confirmation of all insurance recovery amounts prior to loan approval and before 

 every disaster loan disbursement. 

 Additionally,in response to this audit,ODA addressed 19of the 21 exceptions.

 We recommended that ODA coordinate with the Office of Financial Assistance 

(OFA)to resolve the remaining two exceptions. We also recommended that OFA

 implement procedures at the servicing centers that require a re-verification of

                        during the servicing of loans. Finally,ODA needs to develop

ainsurance  recoveries
   corrective action plan to identify and address the offset errors present in the

 universe,but not specifically reviewed in this audit. 

 BACKGROUND 

 The 2005 Gulf Coast hurricanes resulted in SBA awarding an unprecedented

 number of disaster assistance loans to homeowners,renters,businesses and

 nonprofit organizations to help them repair damages due to wind and extensive 

2
   LouisianaforCitizens
     products                                               non-profit
                          Property Insurance Corporation is a          insurance corporation created to provide insurance

                   residential and commercial property applicants who are in good faith entitled,but unable,to procure

     insurance through the voluntary insurance marketplace.

                                                                                                          3

flooding.  As of July 1,2009,SBA had disbursed more than 119,000 disaster loans

totaling about $6.6 billion to Gulf Coast disaster victims. 

Section 5155 of the Stafford Act requires Federal agencies providing disaster

assistance  to ensure that businesses and individuals do not receive disaster

assistance  on  losses    for which they have already been compensated. Individuals

receiving Federal assistance for major disasters are liable to the United States to

the extent that such assistance duplicates benefits received for the same purpose.

Therefore,    borrowers    are eligible to receive only disaster loan funds in the amount

of their uncompensated losses. 

To comply with the Act,Standard Operating Procedure (SOP)5030 requires SBA

staff to determine the borrower s uncompensated loss,which is the total verified

loss  due to the disaster,minus any applicable amount for which the borrower has

already been compensated. 

SBA s Associate Administrator for Disaster Assistance plans, directs, and

administers the disaster loan program. Loan approvals and disbursements are

processedOncebyatheloanProcessing and Disbursement Center (PDC),which reports to

ODA.                     has been fully disbursed,the PDC generally transfers the loan

file to either the El Paso or Birmingham Loan Servicing Center,according to the

borrower s geographic location. Both of the servicing centers are operated by

OFA. 

In July 2009,we reported that SBA was not adequately monitoring and offsetting

loan  balances by3insurance recoveries associated with disaster loans for the

Midwest Floods, which resulted in $126,876 in duplicate benefits. Further,we

reported that ODA did not take steps to recover some of the duplicate benefits

after it became aware of them. In response to the audit,ODA agreed to revise

SOP 50 30 to require a re-verification of all insurance recovery amounts prior to 

every loan disbursement. 

RESULTS 

SBA Did Not Always Correctly Account for Insurance Recoveries 

SBA did not accurately account for insurance  recoveries on 21 loans,which

caused offset errors totaling $385,610. Of this amount,$314,363 represents

                                      4
duplicate benefits and $71,247 represents understated and prior unused eligibility. 

3 OIG       9-13,
     Report Application of Insurance Offsets on Disaster Loans for the Midwest Floods of 2008,July 6,2009.

                                                                                         less.
 The exceptions ranged from $500to $240,709,with 20 of the exceptions equaling $32,159 or As a result, we

4
   21
 considered the remaining one exception of $240,709to be an outlier,and therefore,excluded that amount in our

 appraisal of the sample for projection purposes.

Projecting the sample offset errors to the universe of 119,162 loans,we are
percent
$80.2
                                                                             95-
     4

          confident that SBA did not appropriately adjust loan eligibility by at least

        million in insurance recoveries,of which at least $20.3 million were

duplicate benefits. 

insurance    companies
disbursements,          re-verify 30.
Sixteen of the 21 exceptions occurred because loan officers did not contact

                          to          recovery  amounts   prior to issuing the final

                  as required by SOP 50 According to the SOP,a duplication of

orconfirmation
    insurance recoveries     have been
                of insurance recoveries from the borrower. In other cases,ODA

contacted insurance companies during the disbursement process,but did not
verify the recovery amounts prior to final loan disbursements. For example: 

                                                                               re-

benefits check must be completed before each disbursement to verify that all grant

                                       addressed.  In some cases,ODA accepted verbal


         ODA identified flood insurance recoveries for real estate totaling $74,015

              loan.
         on one However,our review of the NFIP database revealed that the

         actual amount received by the borrower was $89,016 or $15,001 more than

         SBA had identified. The loan file contained no evidence that the case 

         manager   verified the actual amount of insurance payments received by the

         borrower prior to disbursement. 

         In another case,ODA obtained verification at loan approval that the

         borrower   s  insurance  provider paid a $28,664 recovery. However,we

         confirmed with the insurance company that the borrower received insurance

         recoveries   totaling $34,672 prior to the final loan disbursement. This

         resulted in an offset error in the amount of $6,008. 

The remaining 5 of the 21 offset errors occurred after loan funds were fully

disbursed.    In two instances,the servicing centers incorrectly determined that the

disbursement was not a duplicate benefit. In the otherthree instances,borrowers 

did not report additional insurance recoveries received after the final

disbursements of their loans,as required by their signed Assignments of Insurance

Proceeds(AIP). For example: 

      In disbursing one loan,ODA verified that the borrower had received

      $967,700 in insurance recoveries at the time of final disbursement.

      However,   subsequent to the final disbursement,the borrower received,but 

      did not report,an additional $240,709,which duplicated the SBA loan

      proceeds. 

       In the remaining two instances a servicing center received insurance 

       recovery checks on fully disbursed loans,but released the checks to the

                                                                                     5
       borrowers    after erroneously determining that they were not duplicate

       benefits. 

ODA case managers interviewed told us that they generally did not verify

insurance   recovery  amounts  before disbursing funds as it was time consuming to

contact  insurance   companies   prior to every disbursement,and waiting for a 

response  could unfairly delay loan disbursements to disaster victims. Further,they

believed that the duplication of benefits review called for by the SOP required a

check for only FEMA grants that may have been awarded to borrowers. We

previously recommended that ODA revise SOP 5030 to require confirmation of

insurance payments prior to loan approval and before the final disbursement. 

In response to the prior audit,ODA agreed to revise SOP 5030 to require a     re-

verification of all insurance recovery amounts prior to every loan disbursement.

To address offset errors present in the universe of existing loans,ODA should

develop and implement a plan to identify and correct duplicate benefits. At a

minimum,     the plan should include steps to identify and review loans that have the

greatest chance of unidentified duplicate payments. We believe this action will

improve   the Agency s ability in the future to identify all insurance recoveries paid

to borrowers prior to final loan disbursements. Additionally, SBA may want to

consider  sending notices to borrowers reminding them of their agreement to notify

SBA of insurance payments,which could be another way of ensuring that

payments are reported. 

to include it asaco-paye
Offset errors also occurred because insurance companies ignored SBA s requests

                              on insurance  payments,  even though the signed

Assignment of Insurance Proceeds (AIP)gave SBA claim to any insurance

proceeds   that duplicated benefits received from disaster loans. Although the AIP

is forwarded to the insurance company,it is strictly an agreement between SBA

and the borrower and does not have to be adhered to by the insurance company.

Consequently,    SBA was not always notified by the insurance companies when

insurance   payments were made. Therefore,solely relying on the AIP process is

insufficient for identifying insurance payments after loans have been fully

disbursed.   For  this reason,we believe that the servicing centers should also

perform a re-verification of insurance payments to identify duplicate benefits as

part of its normal servicing activities. 

As a result of our audit,the Agency took steps to address $269,882 of the

duplicate benefits involving 19of the 21 loans by either pursuing collection

actions  or increasing borrower loan eligibility to absorb the over-disbursed

amounts.    Additionally, ODA will need to work with OFA to resolve the two

remaining exceptions totaling $44,481 that were disbursed after the loans were

transferred to the servicing centers.

                                                                                       6

RECOMMENDATION 

We recommend that the Acting Associate Administrator,Office of Disaster

Assistance direct the Processing and Disbursement Center to:

   1. Work with OFA to resolve the two over-disbursements totaling $44,481,of

      the $314,363in over-disbursements identified in this audit,that occurred

      after the loans were transferred to the servicing centers.

   2. Develop a plan to identify and address duplicate benefits present in the

                                                              loans.
      remaining universe of Gulf Coast Hurricane Disaster At a minimum,

      the plan should include steps to identify and review loans that have the

      greatest chance of unidentified duplicate payments. 


                             at servicing centers require a re-

 We also recommend that the Director,Office of Financial Program Operations

(OFPO):

   3. Implement   procedures     the
      between 6-months to year after
      verification insurance recoveries
                   of
                            1
                                         during the
                                                       that
                                                 servicing loans,
                                                                   timely
                                                                 of preferably

                                              transferred to servicing. 

                                       the file is
AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL 

RESPONSE 

On September 11,2009 we provided the Office of Disaster Assistance (ODA)and

the Office of Financial Program Operations (OFPO)with the draft report for

comment.   On October 15,2009 ODA and OFPO issued a joint formal response,

                                 IV.
which is contained in Appendix Management agreed with our findings,

concurred with all three recommendations. 

Recommendation 1 

Management Comments 

process of resolving the duplication of benefits through potential loss
verifications.
                                                        re-

ODA stated that it has recalled both files from the servicing center and is in the 

                                                                                   7
OIG Response 

Management  s proposed actions are responsive to the recommendation;however,

ODA needs to provide a target date for completing the actions outlined in its

response. 

Recommendation 2 

Management Comments 

ODA concurred with the recommendation,stating it has 332 Gulf Coast loans

remaining in the PDC of which 78 are fully disbursed. Management stated that it

will review the remaining universe of Gulf Coast loans and confirm insurance

recoveries
Additionally, management stated that asa result of Audit Report   09-13,

             within 45 days of the date of its response to the draft report.


                             09-24.
Application of Insurance Offsets on Disaster Loans for the Midwest Floods of

2008,  it has undertaken steps to prevent similar issues from occurring in the future 

by issuing memorandum               The memorandum emphasizes the need to

address insurance recoveries prior to all loan disbursements. 

OIG Response 

Management s comments are responsive to the recommendation. 

Recommendation 3 

Management Comments 

OFPO stated that it will work with ODA in determining the universe of loans

requiring
data.    follow-up follow-up
                      for re-verifying insurance recoveries from available DCMS

      It will develop a             procedure   based on the universe of loans

requiring
volume,   re-verification.  Management    proposed a trial project to determine work

          staffing resources and cost efficiency of contacting all borrowers and

insurance   companies. Procedures would be coordinated with ODA so that future

efforts are not duplicated. OFPO intends to establish a trial project and hire staff

to begin the project by March 31,2010. The project will last six months through

September 30,2010,at which point OFPO will evaluate the results between

September 30,2010 and December 31,2010. Based on these results, OFPO will

determine the appropriate process going forward.

                 I. 

APPENDIX SCOPE AND METHODOLOGY

The objective of the audit was to determine whether SBA properly reduced Gulf

Coast Hurricanes loan balances to reflect flood and hazard insurance offsets. To

                                                                                    9


address the audit objective,we reviewed a statistical sample of 100 Gulf Coast

Hurricane     loans  totaling nearly $6 million that were disbursed between October 

2005 and October 2007 to determine whether all applicable insurance payments

were     identified and properly offset against each loan s verified loss. We identified

flood insurance payments made to the sampled loan recipients based on

information reported in the National Flood Insurance Program (NFIP)database.

We identified hazard insurance payments by contacting insurance companies

listed in SBA s Disaster Credit Management System electronic loan files,and by

obtaining a summary of hazard insurance recoveries paid by Louisiana Citizens

Property Insurance Corporation. 

We interviewed Office of Disaster Assistance (ODA)loan officers and case 

managers      at the Disaster Loan Processing and Disbursement Center in Fort Worth,

Texas     to obtain an understanding of the insurance offset process used prior to loan

approval and during loan disbursement. Where insurance payments were noted,

weerrorreviewed   SBA s computation of uncompensated losses and considered any

         in the computation to be an offset error. All insurance payments that were

for the same purpose as the disaster loans were considered to be duplicate benefits.

Not all offset errors resulted in a duplication of benefits as some borrowers opted

not to receive all loan funds for which they were eligible. 

To test the reliability of our universe of Gulf Coast disaster loans,we verified the

following data parameters: (1)all loans that had disaster declaration numbers

resulting from a Gulf Coast disaster;(2)all loan with approval dates between

October 2005 and October 2007;and (3)all loans that had been at least partially

disbursed.
accordance     The audit was performed between July 2008 and July 2009 in

                with Government Auditing Standards as prescribed by the Comptroller

General     of the United States,and included such tests considered necessary to

provide reasonable assurance of detecting abuse or illegal acts.

From  a
                I.
APPENDIX SAMPLING METHODOLOGY 

        population universe of 119,162 Gulf Coast Hurricane disaster loans

                                                                                 10

totaling $6.5 billion that were disbursed between October 2005 and October 2007,

we statisticallyassampled
requirements                100 loans for compliance with duplication of benefits

                   it pertains to insurance recoveries. Based on a review of 100 Gulf

Coast disaster loans,we found 21 exceptions totaling $385,610 where the agency

did not correctly offset insurance payments received by the borrowers to arrive at

the uncompensated losses. These exceptions ranged from $500to $240,709,with 

20 of the exception amounts equaling $32,159 or less. As a result, we considered

that amount in our appraisal of the sample for projection purposes. 

Projecting the sample offset errors to the universe of 119,162 loans,we are
percent
$80.2
                                                                             95-

the remaining one exception of $240,709 to be an outlier, and therefore excluded


         confident that SBA did not appropriately adjust loan eligibility by at least

       million in insurance recoveries,of which at least $20.3 million were

duplicate benefits. A 90-percent confidence level means that there is a 90-percent

probability that the actual value is between the lower and upper limits. There is a

5-percent                                                            5-percent

           probability that the value lies below the lower limit,and a
probability that it lies above the upper limit. Thus,we are 95-percent confident

that the value is greater than the lower limit. 

                                   Offset Errors 

            Occurrence in Population

             Sample Loan     Point

                                                      90-Percent Confidence

            Disbursements Estimate 
               Lower Limit Upper Limit 

Number            20              23,832      16,288       33,028

Dollars       $144,901         $172,666,930 $80,222,808 $265,111,051 


                       Duplicate Benefits 

        Occurrence in Population

        Sample of 100 
 Point

                                                      90-Percent
                                                  Confidence

            Loan 
 Estimate

       Disbursements                   Lower Limit Upper Limit 

Number       12           14,299            8,430      22,299

Dollars $73,654 $87,767,579 $20,264,171 $155,270,988

       IV.
APPENDIX AGENCY COMMENTS 
   14
